Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 1

NOT RECOMMENDED FOR PUBLICATION
No. 19-1918
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

GANIYU AYINLA JAIYEOLA,
Plaintiff-Appellant,
v.

TOYOTA MOTOR NORTH AMERICA, INC., et
al.,
Defendants,
and
TOYOTA MOTOR CORPORATION, a foreign
corporation; AISAN INDUSTRY CO., LTD, a
foreign corporation,
Defendants-Appellees.

FILED

Feb 01, 2021
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF
MICHIGAN

)
)
)
)
)
)
)
)

ORDER

Before: STRANCH, THAPAR, and READLER, Circuit Judges.
Ganiyu Ayinla Jaiyeola, a Michigan resident proceeding pro se, appeals the district court’s
order denying his motion for summary judgment and awarding summary judgment to Toyota
Motor Corporation (“TMC”) and Aisan Industry Company, Ltd. (“Aisan”). This case has been
referred to a panel of the court that, upon examination, unanimously agrees that oral argument is
not needed. See Fed. R. App. P. 34(a).
In November 2016, Jaiyeola filed a lawsuit against several defendants, including TMC and
Aisan, in state court, alleging that on November 25, 2013, he was driving a 1996 Toyota Camry in

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 2

No. 19-1918
-2Portland, Michigan, when it suddenly accelerated, causing him to hit a guardrail and suffer severe
injuries. Jaiyeola asserted Michigan state-law claims for gross negligence, negligent production,
failure to warn, and breach of implied and express warranty. TMC and Aisan filed separate
responsive pleadings before removing the lawsuit to federal court based on diversity jurisdiction.
See 28 U.S.C. §§ 1331, 1332, 1441(a). Jaiyeola unsuccessfully moved to remand the case back to
state court. The district court subsequently terminated all defendants other than TMC and Aisan
from the lawsuit due to Jaiyeola’s failure to timely serve them with process.
During discovery, the magistrate judge entered a case management order requiring Jaiyeola
to identify his expert witnesses and provide their expert reports no later than May 3, 2018. See
Fed. R. Civ. P. 26(a)(2). Jaiyeola timely submitted his Rule 26 disclosures, identifying John
Stilson as a “safety and automotive” expert and Investigating Officer Star Thomas as an “accident
investigation and accident reconstruction expert.”

On June 10, 2018, however, Jaiyeola

supplemented his disclosures to identify himself as an expert witness. On TMC and Aisan’s
motions, the magistrate judge: (1) struck Stilson as an expert witness because Jaiyeola sought to
utilize his opinions from a prior, unrelated case; (2) limited Officer Thomas’s opinions to accident
investigation since she admitted that she was unqualified in accident reconstruction; and (3) struck
Jaiyeola as an expert witness because his supplemental Rule 26 disclosure was untimely filed.
In October 2018, TMC and Aisan (collectively, “the defendants”) jointly moved for
summary judgment, arguing that Jaiyeola failed to meet his burden of establishing a genuine issue
of material fact with respect to each of his claims, and that they were therefore entitled to judgment
as a matter of law. See Fed. R. Civ. P. 56(a). They specifically argued that Jaiyeola’s productliability claims were subject to the Michigan Product Liability Act (“MPLA”), see Mich. Comp.
Laws § 600.2945 et seq., and “require[dj expert testimony of proof of some nonconformity and a
causal connection between the defect and the purported injury.” They contended that, apart from
his own conjecture, Jaiyeola presented no admissible expert testimony establishing either that they
were responsible for a product defect or that any defect proximately caused his alleged injuries.
Jaiyeola filed a response in opposition to the defendants’ summary judgment motion, in which he
agreed that his claims were subject to the MPLA, but nonetheless asserted that he had established

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 3

No. 19-1918
-3 a design-defect claim under Michigan Compiled Laws § 600.2946(2). To that end, Jaiyeola, who
is an engineer, cited a self-authored “expert” report that “identified a specific unsymmetrical rib
design defect of the ribs on the Air Cleaner (Intake) Hose... of the Canary.” According to Jaiyeola,
“[tjhat design defect resulted in a [bjroken [h]ose. The [b]roken [h]ose caused [sudden unintended
acceleration] of the Canary and a crash after the Canary slid on ice.”
Jaiyeola subsequently filed a cross-motion for summary judgment, arguing that he was
entitled to judgment as a matter of law because his own “expert report clearly confirmed that the
Canary had a design defect and the defect caused all of [his] injuries from the accident of November
25, 2013.” The defendants opposed Jaiyeola’s cross-motion, in part, because Jaiyeola “failed to
timely identify a single expert (consultant or retained) that has not already been struck by the Court,
who will opine that a design and/or manufacturing defect existed in the [sjubject [v]ehicle on the
date of the [c]rash or that [Jaiyeola] experienced ‘unwanted sudden unintended acceleration’ that
caused the [c]rash.”
The magistrate judge recommended granting the defendants’ motion for summary
judgment and denying Jaiyeola’s cross-motion for summary judgment. Over Jaiyeola’s objections,
the district court adopted the magistrate judge’s report and recommendation and entered judgment
in favor of the defendants. See Jaiyeola v. Toyota Motor N. Am, Inc., No. l:17-cv-562, 2019 WL
3543628 (W.D. Mich. Aug. 5, 2019).
Jaiyeola advances a litany of arguments on appeal. Specifically, he challenges the district
court’s grant of summary judgment in favor of the defendants and raises claims of judicial bias.
He also challenges the district court’s rulings on his various motions, such as his motion to remand
the case to state court and motions for sanctions, appointment of counsel, and pauper status.
Jaiyeola requests oral argument.
The defendants have filed a response brief, also requesting oral argument, to which Jaiyeola
filed “errata” and a reply brief. The defendants move to strike those filings for violating this court’s
order limiting any reply brief to 8,000 words. See Jaiyeola v. Toyota Motor N. Am., Inc., No. 191918 (6th Cir. July 9, 2020) (clerk’s order). Considering Jaiyeola’s pro se status, we deny the
defendant’s motion to strike. However, to the extent that Jaiyeola’s errata or reply brief contain

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 4

No. 19-1918
-4either evidence not presented to the district court or arguments not advanced in his opening brief,
we decline to address them. See Anton v. Nat 7 Union Fire Ins. of Pittsburgh, 634 F.3d 364, 368
n.2 (6th Cir. 2011).
I.

Jurisdiction

Jaiyeola argues that the district court erroneously allowed the defendants to remove the
lawsuit to federal court without first “getting a certification” from the Michigan Supreme Court.
We review the existence of subject-matter jurisdiction de novo, but review a district court’s
jurisdictional factual determinations for clear error. See Rogers v. Wal-Mart Stores, Inc., 230 F.3d
868, 871 (6th Cir. 2000).
The federal removal statutes do not require a defendant to obtain authorization from the
state courts before removing a lawsuit to federal court. Rather, 28 U.S.C. § 1441(a) simply
provides that “any civil action brought in a State court of which the district courts of the United
States have original jurisdiction, may be removed by the ... defendants, to the district court of the
United States for the district and division embracing the place where such action is pending.”
Federal courts have subject-matter jurisdiction under 28 U.S.C. § 1332(a) when the plaintiff and
the defendants are citizens of different states and the amount in controversy exceeds $75,000. For
jurisdiction to be proper under § 1332(a), there must be complete diversity of citizenship among
the parties—“no party [can] share citizenship with any opposing party.” Safeco Ins. Co. ofAm. v.
City of White House, 36 F.3d 540, 545 (6th Cir. 1994).
There is no dispute that the amount in controversy exceeded the jurisdictional limit because
Jaiyeola sought $125,000 in damages. Rather, Jaiyeola, who is a citizen of Michigan, alleged
below that two of the defendants named in his complaint—Toyota of Grand Rapids and Bosch
Automotive Service Solutions Inc.—are also Michigan citizens, which would destroy complete
diversity and make removal improper. But 28 U.S.C. § 1446(b)(3) pertinently provides that
if the case stated by the initial pleading is not removable, a notice of removal may
be filed within [thirty] days after receipt by the defendant, through service or
otherwise, of a copy of an . . . order or other paper from which it may first be
ascertained that the case is one which ... has become removable.

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 5

No. 19-1918
-5The district court adopted the magistrate judge’s conclusion that Jaiyeola’s lawsuit became
removable to federal court although it may not have been removable at its inception. In reaching
that conclusion, the magistrate judge noted that all the defendants other than TMC and Aisan were
automatically dismissed from the state lawsuit in May 2017, before this matter was removed. This
was because, pursuant to Michigan Court Rule 2.102(E)(1), if a summons expires before service
of process can be effected, “the . action is deemed dismissed without prejudice” as to such
defendant. The magistrate judge noted that Jaiyeola was required to serve all the defendants with
process no later than May 21, 2017, and that TMC and Aisan were the only defendants served
before that deadline. Jaiyeola failed to rebut that finding. Consequently, TMC and Aisan were
the only defendants remaining when they removed this lawsuit to federal court in June 2017.
Jaiyeola acknowledged in his complaint that TMC and Aisan are not citizens of Michigan.
Accordingly, TMC and Aisan’s removal to federal court was proper.
II.

Summary Judgment

We review a district court’s grant of summary judgment de novo, viewing the facts in the
light most favorable to the non-moving party. Flagg v. City ofDetroit, 715 F.3d 165,178 (6th Cir.
2013). Summary judgment is appropriate “if the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see Estate ofSmithersex rel. Norris v. City of Flint, 602 F.3d 758, 761 (6th Cir. 2010). If
the moving party satisfies this burden, the burden then shifts to the non-moving party to set forth
“specific facts showing that there is a genuine issue for trial.” Matsushita Elec. Indus. Co. v. Zenith
Radio Corp., 475 U.S. 574, 587 (1986) (emphasis omitted) (quoting Fed. R. Civ. P. 56(e)).
“Where, as here, subject matter jurisdiction is based on diversity of citizenship, we apply the
substantive law of the forum state.” Fox v. Amazon.com, Inc., 930 F.3d 415, 422 (6th Cir. 2019).
The district court adopted the magistrate judge’s conclusion that Jaiyeola failed to
discharge his reciprocal burden by not putting forth any admissible expert evidence in support of
his Michigan product-liability claims. See, e.g., Green v. Jerome-Duncan Ford, Inc., 491 N.W.2d
243,247 (Mich. Ct. App. 1992) (per curiam) (granting summary disposition to the defendant when
the plaintiff failed to offer expert testimony that the product was defective). Recognizing this fatal

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 6

No. 19-1918
-6omission, Jaiyeola contends that the district court should have appointed a neutral expert. A
district court’s decision not to appoint an expert in a civil case is subject to reversal only for abuse
of discretion. See Dodson v. Wilkinson, 304 F. App’x 434, 442 (6th Cir. 2008). “A district court
abuses its discretion when it ‘relies on erroneous findings of fact, applies the wrong legal standard,
misapplies the correct legal standard when reaching a conclusion, or makes a clear error of
judgment.’” Ondo v. City of Cleveland, 795 F.3d 597, 603 (6th Cir. 2015) (citing Reeb v. Ohio
Dep’t of Rehab. & Corr., 435 F.3d 639, 644 (6th Cir. 2006)). The magistrate judge determined
that Jaiyeola “had ample opportunity to secure the services of expert witnesses in this matter.”
Indeed, Jaiyeola waited until June 28, 2018—nearly two months after the expiration of the court’s
expert-disclosure deadline—to file his motion for a court-appointed expert. The magistrate judge
did not abuse her discretion in denying Jaiyeola’s motion.
Jaiyeola also argues that he would have survived summary judgment had the district court
not improperly struck his untimely supplemental Rule 26 disclosures in which he identified himself
as an expert. We review discovery orders for an abuse of discretion. Bill Call Ford, Inc. v. Ford
Motor Co., 48 F.3d 201, 209 (6th Cir. 1995). If a party fails to provide information as required by
Rule 26(e), the party is not allowed to use that information to supply evidence on a motion “unless
the failure was substantially justified or is harmless.” Fed. R. Civ. P. 37(c)(1). However, a party
who does not comply with the discovery rules may avoid sanctions if “there is a reasonable
explanation of why Rule 26 was not complied with or [if] the mistake was harmless.” Howe v.
City of Akron, 801 F.3d 718, 747 (6th Cir. 2015) (quoting Bessemer & Lake Erie R.R. v. Seaway
Marine Transp., 596 F.3d 357, 370 (6th Cir. 2010)).
In assessing whether a party’s untimely disclosure was justified or harmless, we analyze
five factors:
(1) the surprise to the party against whom the evidence would be offered; (2) the
ability of that party to cure the surprise; (3) the extent to which allowing the
evidence would disrupt the trial; (4) the importance of the evidence; and (5) the
nondisclosing party’s explanation for its failure to disclose the evidence.

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 7

No. 19-1918
-7Id. at 748 (quoting Russell v. Absolute Collection Servs., Inc., 763 F.3d 385, 396-97 (4th Cir.
2014)). Jaiyeola did not explain why it took him over a month after the expiration of the expertdisclosure deadline to identify himself as an expert. He argued instead that the defendants were
not prejudiced by his untimely supplemental disclosures. The district court disagreed because, in
addition to being untimely, Jaiyeola’s supplemental disclosures failed to include a “written report”
as required by Rule 26(a)(2)(B). The district court noted that Jaiyeola had yet to proffer an expert
report as of August 5,2019. Thus, the prejudice to the defendants stemming from Jaiyeola’s failure
to comply with Rule 26 was still ongoing more than two years into the litigation. The district court
did not abuse its discretion by striking Jaiyeola’s untimely supplemental Rule 26 disclosures.
Jaiyeola further contends that the magistrate judge wrongly denied his motions to compel
TMC to both evaluate his Camry’s air-cleaner hose and to translate certain company documents
into English. But as the magistrate judge aptly noted, although Jaiyeola “was permitted to conduct
tests on the part in question,” see Fed. R. Civ. P. 34(a)(2), he “failed to demonstrate that any efforts
on his part to conduct tests on the part in question were denied or otherwise thwarted.” He also
failed to show that the air-cleaner hose was in TMC’s “possession, custody, or control.” Fed. R.
Civ. P. 34(a)(1). Lastly, Jaiyeola failed to show that TMC did not produce the documents in
question “as they [were] kept in the usual course of business.” Fed. R. Civ. P. 34(b)(2)(E)(i). The
magistrate judge did not abuse her discretion by denying Jaiyeola’s motions to compel.
Because Jaiyeola failed to put forth any admissible expert evidence in support of his claims,
the district court properly granted the defendants’ motion for summary judgment and denied his
cross-motion for summary judgment. See Green, 491 N.W.2d at 247. Although Jaiyeola argues
that the district court erred by denying as moot his motion for leave to file a reply in support of his
summary judgment motion, as well as his motions to exclude TMC’s experts under Daubert v.
Merrell Dow Pharm., Inc., 509 U.S. 579 (1993), such arguments are meritless. Given that the
record lacked any admissible expert evidence in support of Jaiyeola’s claims, no argument in a
reply brief or favorable ruling on a Daubert motion would have enabled him to survive summary
judgment.

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 8

No. 19-1918
-8III.

Bias and Misconduct Claims

Jaiyeola alleges that the magistrate judge and the district court judge were both biased
against him, thus requiring their recusal or disqualification.

A judge’s conduct may be

“characterized as ‘bias’ or ‘prejudice’” if “it is so extreme as to display clear inability to render
fair judgment.” Liteky v. United States, 510 U.S. 540, 551 (1994). Additionally, a judge’s
frustration with a litigant does not give rise to an inference of bias or partiality absent some
indication ofpersonal animosity on the part of the judge. See United States v. Griffin, 84F.3d 820,
830-31 (7th Cir. 1996); accord Gordon v. Lafler, 710 F. App’x 654, 664 (6th Cir. 2017). Jaiyeola
has failed to make such a showing. To the extent that Jaiyeola takes issue with the various adverse
rulings below, it is well-settled that “judicial rulings alone almost never constitute a valid basis for
a bias or partiality motion.” Liteky, 510 U.S. at 555. While Jaiyeola argues that it was improper
for the magistrate judge to issue her report and recommendation prior to ruling on his pending
motion for her to recuse herself due to alleged bias, he cannot show prejudice arising therefrom
because the district court subsequently considered his recusal motion and denied it on the merits.
Next, Jaiyeola argues that the district court clerk violated his due-process rights by not
filing several pleadings that he had submitted in November and December 2018—before the
magistrate judge issued her report and recommendation. But the magistrate judge explicitly
informed Jaiyeola that she had examined the pleadings in question and ordered the clerk to reject
them and return them to him. This was because Jaiyeola tried filing those pleadings after the
magistrate judge had issued an order on November 5, 2018, explicitly stating that “[n]o additional
motions may be filed by any party without leave of court” due to the large number of motions then
pending. In any event, as the district court rightly observed, Jaiyeola failed to explain how the
pleadings in question would have altered “the outcome of the substantive legal claims,” or how
their absence from the record “denied him due process with respect to the cross-motions for
summary judgment.” Jaiyeola, 2019 WL 3543628, at *2.
Jaiyeola further argues that, upon entering judgment in this matter, the district court
wrongly denied his pending motions for sanctions against defense counsel on mootness grounds.
We “review the district court’s decision whether to impose sanctions ... for abuse of discretion.”

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 9

No. 19-1918
-9Jones v. III. Cent. R.R. Co., 617 F.3d 843, 850 (6th Cir. 2010). “A court abuses its discretion when
it commits a clear error of judgment, such as applying the incorrect legal standard, misapplying
the correct legal standard, or relying upon clearly erroneous findings of fact.” Id. (quoting In re
Ferro Corp. Derivative Litig., 511 F.3d 611, 623 (6th Cir. 2008)).

A district court retains

jurisdiction to consider collateral issues, such as sanctions, even after entry of judgment on the
merits. Knight Capital Partners Corp. v. Henkel AG & Co., KGaA, 930 F.3d 775, 787 (6th Cir.
2019) (citing Cooter & Gell v. Hartmarx Corp., 496 U.S. 384, 395 (1990)). But the district court
may deny sanctions as moot where the requested relief relates to the merits. See e.g, Prewitt v.
Hamline Univ., 164 F. App’x 524, 527 (6th Cir. 2019) (permitting the denial of a sanctions motion
as moot where the requested relief was an extension of discovery deadlines).
Of the nine motions denied as moot by the district court, two related to sanctions requests:
Plaintiffs motion to strike the defendants response because it contains lies against plaintiff and
sanction the defendants attorneys for misconduct (R. 264) and Plaintiff’s motion to sanction the
defendants’ attorney Carmen M. Bickerdt for misconduct (R. 265). The first motion (R. 264)
alleges fraud on the court by defense counsel and requests the district court strike Defendants’
response to one of Jaiyeola’s previous motions and sanction defense counsel for misconduct. The
second motion (R. 265) alleges Brady violations and makes an unspecified request for sanctions.
Neither motion makes explicit reference to attorney fees or monetary sanctions. The first motion,
however, requests that the court strike a filing and sanction defense counsel. It seems to delineate
between relief on a merits issue and relief on a collateral issue. As to the relief on a collateral
issue, “[t]he district court should have considered and ruled on the merits of’ that request, which
is separate from Jaiyeola’s request for relief on a merits issue. Knight Capital Partners Corp., 930
F.3d at 787. The second motion, however, does not specify what relief is requested. Considering
that the underlying accusations relate to evidentiary matters, we cannot say the district court abused
its discretion in construing the requested relief as related to the merits, and thus moot.
IV.

Remaining Claims

Jaiyeola argues that the district court’s cumulative errors require that his case be remanded
for further proceedings in front of a different judge. See Beck v. Haik, 377 F.3d 624, 644-45 (6th

Case: 19-1918

Document: 51-2

Filed: 02/01/2021

Page: 10

No. 19-1918
- 10Cir. 2004) (extending the cumulative-error doctrine to civil cases), overruled on other grounds by
Adkins v. Wolever, 554 F.3d 650 (6th Cir. 2009) (en banc). But the cumulative-error doctrine does
not warrant reversal here because we have identified only one error (which itself does not concern
the district court’s decision on the merits of Jaiyeola’s claims).
He also contends that the district court erred by not permitting him to proceed in forma
pauperis on appeal. This court has already resolved this issue, concluding that the district court
properly denied pauper status to Jaiyeola. See Jaiyeola, 2020 U.S. App. LEXIS 6140 (6th Cir.
Feb. 27, 2020) (order).
Finally, Jaiyeola argues that the district court erred by not appointing him counsel in this
matter. However, counsel should not be appointed in a civil case unless exceptional circumstances
exist. Lavado v. Keohane, 992 F.2d 601, 606 (6th Cir. 1993). No exceptional circumstances
warranted the appointment of counsel in this matter.
Accordingly, we DENY the request for oral argument and the defendants’ motion to strike
Jaiyeola’s reply brief and AFFIRM the district court’s judgment. However, we REVERSE and
REMAND Jaiyeola’s sanctions motion (R. 264) for consideration as to the request for sanctions
related to issues collateral to the merits.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6724 Page 1 of 6
APPENDIX B

12

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION

GANIYU AYINLA JAIYEOLA,
Plaintiff,
Case No. l:17-cv-562
v.
HON. JANET T. NEFF
TOYOTA MOTOR NORTH
AMERICA, INC., et al.,
Defendants.

OPINION AND ORDER
This matter is before the Court on Plaintiffs Appeal (ECF No. 252) of a Magistrate Judge
order denying reconsideration, and Plaintiffs Objections (ECF No. 291) to a Report and
Recommendation of the Magistrate Judge, recommending that Plaintiffs Motion for Summary
Judgment be denied; Defendants’ Motion for Summary Judgment be granted; and this case be
terminated. Plaintiff has also since filed nine additional various motions, including for further
reconsideration and sanctions. The Court has reviewed the Magistrate Judge’s order for error and
has performed de novo consideration of those portions of the Report and Recommendation to
which objection has been made. See 28 U.S.C. § 636(b)(1) and Fed. R. Civ. P. 72(b)(3). The
Court denies the Appeal and the Objections. None of Plaintiff s various subsequent motions affect
this result, and they are therefore denied as moot. This case is properly terminated.
I. Plaintiffs Appeal
Plaintiff appeals the Magistrate Judge’s order denying Plaintiffs motion for
reconsideration of Plaintiff as an expert witness in this case. This Court will reverse an order of

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6725 Page 2 of 6
13
the Magistrate Judge only where it is shown that the decision is “clearly erroneous or contrary to
law.” 28 U.S.C. § 636(b)(1)(A); see also Fed. R. Civ. P. 72(a); W.D. Mich. LCivR 72.3(a). ‘“A
finding is ‘clearly erroneous’ when, although there is evidence to support it, the reviewing court
on the entire evidence is left with the definite and firm conviction that a mistake has been
committed.’” United States v. Mabry, 518 F.3d 442, 449 (6th Cir. 2008) (quoting United States v.
United States Gypsum Co., 333 U.S. 364, 395 (1948)).
The Magistrate Judge denied reconsideration of her decision that Plaintiffs Rule 26
disclosure of himself as an expert witness was untimely and that Plaintiff is precluded from
testifying in this matter as an expert witness. Plaintiff asserts that the Magistrate Judge “got the
facts” wrong on “Plaintiffs untimeliness” because Plaintiff was not required to formally file his
Rule 26 disclosures (ECF No. 252 at PageID.6126). Nonetheless, Plaintiff acknowledges that he
was untimely in identifying himself as an expert, and argues his untimeliness was harmless (id. at
PageID.6130).
Plaintiff has failed to show that the Magistrate Judge’s order was clearly erroneous or
contrary to law and that Defendants were not prejudiced by his untimeliness. As set forth in
Defendants’ Response (ECF No. 272), the Magistrate Judge’s decision is fully supported by the
record. The Magistrate Judge noted that Plaintiff conceded his Rule 26(a)(1) disclosures were
untimely, but argued that Defendants were not prejudiced by Plaintiffs untimely attempt to
identify himself as an expert witness (ECF No. 245 at PageID.5716). The Magistrate Judge further
noted that Plaintiffs untimely disclosure did not comply with the requirements of Rule 26, and
that the disclosure must be accompanied by a written report, as expressly required in the Case
Management Order (id.). Plaintiffs failure to provide the requisite expert report was prejudicial
to Defendants (id. at PagelD.5717). Moreover, Plaintiffs failure to provide the written report was

2

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6726 Page 3 of 6
14
continuing, and therefore the prejudice to Defendants continued (id.). The Magistrate Judge
properly denied reconsideration—Plaintiff failed to “demonstrate a palpable defect by which the
Court and the parties have been misled” and, that “a different disposition of the case must result
from a correction thereof.” W.D.Mich. LCivR 7.4(a) (see ECF No. 245 at PageID.5716).
Plaintiff makes additional arguments, such as that the Magistrate Judge erred in treating
Defendants’ objection to Plaintiff identifying himself as an expert, as a motion, but none of these
arguments change the outcome. Plaintiffs Appeal is denied.
II. Plaintiff s Objections
After lengthy proceedings in this case, the Magistrate Judge issued a Report and
Recommendation, recommending that Defendants’ motion for summary judgment be granted and
Plaintiffs motion for summary judgment be denied. The Magistrate Judge determined that
Plaintiffs claims, for (1) negligent production; (2) breach of implied warranty; (3) gross
negligence; (4) breach of express warranty; and (5) failure to warn, were in effect, a product
liability action, as Plaintiff acknowledged (ECF No. 260 at PageID.6189-6190).

However,

Plaintiff had failed to submit any expert testimony or expert evidence in support of his claims, as
required to maintain a product liability action under Michigan law (id. at PageID.6190). The only
“evidence” cited by Plaintiff was his own “expert report,” which was held inadmissible (id.). Thus,
Plaintiff had failed to present or identify any admissible evidence creating a genuine factual dispute
necessitating a trial, and Defendants were entitled to summary judgment (id.).
Plaintiff sets forth four objections to the Report and Recommendation: (1) the Magistrate
Judge should have recused herself from this case before the Report and Recommendation was
filed; (2) the Report and Recommendation was premature because it was filed before many of
Plaintiffs pleadings; (3) the Magistrate Judge failed to properly apply the summary judgment

3

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6727 Page 4 of 6
15
standards in analyzing the parties’ cross-motions; and (4) the Magistrate Judge denied Plaintiffs
his due process rights by not applying any legal standard or analysis to back up the
recommendation that this case be “terminated.” None of the arguments raised by Plaintiff in his
objections undermines the Magistrate Judge’s analysis or conclusion that Plaintiffs substantive
legal claims fail as a matter of law.
As set forth in Defendants’ Response, nothing of record establishes personal bias or
prejudice such that the Magistrate Judge was required to recuse herself from this case. At most,
Plaintiff takes issue with the Magistrate Judge’s adverse rulings. “[Jjudicial rulings alone almost
never constitute a valid basis for a bias or partiality motion.” Liteky v. United States, 510 U.S.
540, 555 (1994); see Traficant v. C.I.R., 884 F.2d 258, 267 (6th Cir. 1989). Further, Plaintiff fails
to show how any pleadings he submitted—that allegedly were filed by the Clerk after the Report
and Recommendation or that were not considered by the Magistrate Judge—change the outcome
of the substantive legal claims or denied him due process with respect to the cross-motions for
summary judgment.
This Court finds no merit in Plaintiffs argument that the Magistrate Judge failed to
properly apply the standards for summary judgment. The Magistrate Judge set forth, and correctly
applied, the summary judgment standards in the Report and Recommendation {see ECF No. 260
at PageID.6188-6189). The Magistrate Judge properly determined that there was no “genuine
factual dispute necessitating a trial” {id. at PageID.6190). Plaintiffs mere disagreement with the
outcome does not establish a valid objection. Finally, Plaintiffs objection to the termination of
this case likewise is without merit. Having determined that Plaintiffs legal claims fail, and
Defendants are entitled to summary judgment, this case is properly terminated.

4

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6728 Page 5 of 6
16
The Magistrate Judge’s decision is sound and is supported by the record and the governing
law. Therefore, the Court denies the Objections and adopts the Magistrate Judge’s Report and
Recommendation as the Opinion of this Court.
To the extent that Plaintiff relies on his in forma pauperis status in further litigating this
case, the Court also certifies pursuant to 28 U.S.C. § 1915(a)(3), that an appeal of this Judgment
would not be taken in good faith. See McGore v. Wrigglesworth, 114 F.3d 601, 610-11 (6th Cir.
1997), overruled on other grounds by Jones v. Bock, 549 U.S. 199, 206, 211-12 (2007).
III. Plaintiffs Motions
Plaintiff has filed numerous motions for leave to seek reconsideration of rulings in this
case, as well as for sanctions, to make additional filings, and to strike Defendants’ filings
subsequent to the Report and Recommendation. This case has been thoroughly litigated and
properly decided on the record. None of Plaintiff s pending motions affect the outcome and they
are therefore denied as moot.
A Judgment will be entered consistent with this Opinion and Order. See Fed. R. Civ. P.
58.
Therefore:
IT IS HEREBY ORDERED that Plaintiffs Appeal (ECF No. 252) is DENIED.
IT IS FURTHER ORDERED that Plaintiffs Objections (ECF No. 291) are DENIED,
and the Report and Recommendation of the Magistrate Judge (ECF No. 260) is APPROVED and
ADOPTED as the Opinion of the Court.
IT IS FURTHER ORDERED that Plaintiffs various subsequent Motions (ECF Nos.
264, 265, 266, 268, 277, 279, 281, 283, 285) are DENIED as moot.

5

Case l:17-cv-00562-JTN-ESC ECF No. 304 filed 08/05/19 PagelD.6729 Page 6 of 6
17
IT IS FURTHER ORDERED that this Court certifies pursuant to 28 U.S.C. § 1915(a)(3)
that an appeal of this decision would not be taken in good faith.
IT IS FURTHER ORDERED that Plaintiff is placed on notice that this case is now
TERMINATED upon entry of this Opinion and Order and the Judgment, and if Plaintiff files
motions, notices or other documents that lack any appropriate legal and/or factual basis after this
case is terminated, such filings will be summarily denied or rejected by the Court.

/s/ Janet T. Neff
JANET T. NEFF
United States District Judge

Dated: August 5, 2019

6

Case: 19-1918

Document: 54-1

Filed: 03/16/2021

Page: 1

APPENDIX C

18

No. 19-1918

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

Mar 16, 2021
DEBORAH S. HUNT, Clerk

GANIYU AYINLA JAIYEOLA,
Plaintiff-Appellant,
v.
TOYOTA MOTOR NORTH AMERICA, INC., ET AL.
Defendants,

TOYOTA MOTOR CORPORATION, A FOREIGN CORPORATION;
AISAN INDUSTRY CO., LTD, A FOREIGN CORPORATION,
Defendants-Appellees.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

BEFORE: STRANCH, THAPAR, and READLER, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case l:17-cv-00562-JTN-SJB ECF No. 260, PagelD.6187 Filed 12/06/18 Page 1 of 5

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
GANIYU JAIYEOLA,
Hon. Janet T. Neff

Plaintiff,

Case No. l:17-cv-562

v.
TOYOTA MOTOR CORP., et al.,
Defendants.

REPORT AND RECOMMENDATION
This matter is before the Court on Defendants’ Motion for Summary Judgment,
(ECF No. 226), and Plaintiffs Motion for Summary Judgment, (ECF No. 247). This action arises
from an incident on November 25, 2013, in which Plaintiff was driving a 1996 Toyota Camry
which allegedly “experienced a[n] unwanted sudden unintended acceleration,” resulting in a motor
vehicle accident.

Plaintiff initiated this action in state court asserting various claims under

Michigan law, but the matter was subsequently removed to this Court. The only defendants
remaining in this case, Toyota Motor Corporation (TMC) and Aisan Industry Co., Ltd. (Aisan),
now move for summary judgment. In accordance with 28 U.S.C. § 636(b), authorizing United
States Magistrate Judges to submit proposed findings of fact and recommendations for resolution
of dispositive motions, the undersigned recommends that Defendants’ motion be granted,
Plaintiffs motion be denied, and this matter terminated.
SUMMARY JUDGMENT STANDARD
Summary judgment “shall” be granted “if the movant shows that there is no genuine
dispute as to any material fact and the movant is entitled to judgment as a matter of law.” Fed.

Case l:17-cv-00562-JTN-SJB ECF No. 260, PagelD.6188 Filed 12/06/18 Page 2 of 5

R. Civ. P. 56(a). A party moving for summary judgment can satisfy its burden by demonstrating
“that the respondent, having had sufficient opportunity for discovery, has no evidence to support
an essential element of his or her case.” Minadeo v. ICI Paints, 398 F.3d 751, 761 (6th Cir. 2005).
Once the moving party demonstrates that “there is an absence of evidence to support the
nonmoving party’s case,” the non-moving party “must identify specific facts that can be established
by admissible evidence, which demonstrate a genuine issue for trial.” Amini v. Oberlin College,
440 F.3d 350, 357 (6th Cir. 2006).
While the Court must view the evidence in the light most favorable to the non­
moving party, the party opposing the summary judgment motion “must do more than simply show
that there is some metaphysical doubt as to the material facts.” Amini, 440 F.3d at 357. The
existence of a mere “scintilla of evidence” in support of the non-moving party’s position is
insufficient. Daniels v. Woodside, 396 F.3d 730, 734-35 (6th Cir. 2005). The non-moving party
“may not rest upon [his] mere allegations,” but must instead present “significant probative
evidence” establishing that “there is a genuine issue for trial.” Pack v. Damon Corp., 434 F.3d
810, 813-14 (6th Cir. 2006).
Moreover, the non-moving party cannot defeat a properly supported motion for
summary judgment by “simply arguing that it relies solely or in part upon credibility
determinations.” Fogerty v. MGM Group Holdings Corp., Inc., 379 F.3d 348, 353 (6th Cir.
2004). Rather, the non-moving party “must be able to point to some facts which may or will
entitle him to judgment, or refute the proof of the moving party in some material portion, and. .
.may not merely recite the incantation, ‘Credibility,’ and have a trial on the hope that a jury may
disbelieve factually uncontested proof.”

Id. at 353-54.
2

In sum, summary judgment is

Case l:17-cv-00562-JTN-SJB ECF No. 260, PagelD.6189 Filed 12/06/18 Page 3 of 5

appropriate “against a party who fails to make a showing sufficient to establish the existence of an
element essential to that party’s case, and on which that party will bear the burden of proof at trial.”
Daniels, 396 F.3d at 735.
While a moving party without the burden of proof need only show that the opponent
cannot sustain his burden at trial, a moving party with the burden of proof faces a “substantially
higher hurdle." Arnett v. Myers, 281 F.3d 552, 561 (6th Cir. 2002). Where the moving party
has the burden, “his showing must be sufficient for the court to hold that no reasonable trier of fact
could find other than for the moving party.” Calderone v. United States, 799 F.2d 254, 259 (6th
Cir. 1986). The Sixth Circuit has emphasized that the party with the burden of proof “must show
the record contains evidence satisfying the burden of persuasion and that the evidence is so
powerful that no reasonable jury would be free to disbelieve it.” Arnett, 281 F.3d at 561.
Accordingly, summary judgment in favor of the party with the burden of persuasion “is
inappropriate when the evidence is susceptible of different interpretations or inferences by the trier
of fact.” Hunt v. Cromartie, 526 U.S. 541, 553 (1999).
ANALYSIS
In his complaint, Plaintiff has asserted five separate causes of action under
Michigan law: (1) negligent production; (2) breach of implied warranty; (3) gross negligence; (4)
breach of express warranty; and (5) failure to warn. While Plaintiffs claims sound in common
law tort principles, Michigan has enacted product liability legislation which “established certain
evidentiary standards for a product liability action.” Duronio v. Merck & Co., Inc., 2006 WL
1628516 at *2 (Mich. Ct. App., June 13, 2006). Under Michigan law, a “product liability action”
is defined as “an action based on a legal or equitable theory of liability brought for the death of a
3

Case l:17-cv-00562-JTN-SJB ECF No. 260, PagelD.6190 Filed 12/06/18 Page 4 of 5

person or for injury to a person or damage to property caused by or resulting from the production
of a product.” Tuck v. Wixom Smokers Shop, 2017 WL 1034551 at *2 (Mich. Ct. App., Mar. 16,
2017) (quoting Mich. Comp. Laws § 600.2945). Defendants argue that Plaintiffs claims all
satisfy this statutory definition of a “product liability action.” Plaintiff expressly acknowledges
that such is the case. (ECF No. 242 at PageID.5475).
A plaintiff asserting a product liability action under Michigan law “may proceed
under either a negligence or warranty theory, but must demonstrate that the defendant supplied a
product that was defective and that the defect was the cause of the injury.” Tuck, 2017 WL
1034551 at *2. Plaintiff alleges that his injuries were caused by a specific product defect, “an
unsymmetrical design defect of the ribs on the Air Cleaner Hose” of his vehicle. (ECF No. 242
at PagelD.5474-75). Because the alleged defect in question “presents technical issues that are
beyond the common experience and understanding of the common juror,” Plaintiff is obligated to
support his claims with relevant expert testimony. See, e.g., Dow v. Rheem Mfg. Co., 2011 WL
4484001 at *22 (E.D. Mich., Sept. 26, 2011); Lawrenchukv. Riverside Arena, Inc., 542 N.W.2d
612, 614 (Mich. Ct. App. 1995) (same).
Plaintiff, however, has failed to submit any expert testimony or expert evidence in
support of his claims. In fact, the only “evidence” which Plaintiff cites in support of his claims
is his own “expert report” which the Court has held is inadmissible. (ECF No. 183, 245). In
sum, Plaintiff has failed to present or identify any admissible evidence creating a genuine factual
dispute necessitating a trial. Accordingly, the undersigned recommends that Defendants’ motion
be granted and Plaintiffs motion be denied.

4

Case l:17-cv-00562-JTN-SJB ECF No. 260, PagelD.6191 Filed 12/06/18 Page 5 of 5

CONCLUSION
For the reasons articulated herein, the undersigned recommends that Defendants’
Motion for Summary Judgment, (ECF No. 226), be granted; Plaintiffs Motion for Summary
Judgment, (ECF No. 247), be denied; and this matter terminated.
OBJECTIONS to this Report and Recommendation must be filed with the Clerk of
Court within fourteen (14) days of the date of service of this notice. 28 U.S.C. § 636(b)(1)(C).
Failure to file objections within the specified time waives the right to appeal the District Court’s
order. See Thomas v. Am, 474 U.S. 140 (1985); United States v. Walters, 638 F.2d 947 (6th
Cir.1981).
Respectfully submitted,

Is/ Ellen S. Carmody______
ELLEN S. CARMODY
United States Magistrate Judge

Dated: December 6, 2018

5

Additional material
from this filing is
available in the
Clerk's Office.

